                           OFFICE OF THE INSPECTOR GENERAL
                           CORPORATION FOR NATIONAL AND
                                 COMMUNITY SERVICE




                                 PRE-AUDIT SURVEY OF THE
                                  FLORIDA COMMISSION ON
                                    COMMUNITY SERVICE

                                 OIG Audit Report Number 00-30
                                       January 25,2000




                                            Prepared by:

                                            KPMG LLP
                                       2001 M Street N.W.
                                      Washington, DC 20036

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                 DOL Contract # 5-9-G-8-0022
                                      Task # B9G9V 104




This report was issued to Corporation management on September 20, 2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on the
report's findings and recommendations no later than March 19, 2001, and complete its corrective actions
by September 20, 2001. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                  Office of Inspector General                                CORPORATION
                        Corporation for National and Community Service

                                    Pre-Audit Survey of the
                           Florida Commission on Community Service
                                OIG Audit Report Number 00-30



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting), and
the use of training and technical assistance funds. For each survey, we will issue a report to the state
commission and to the Corporation communicating the results and making recommendations for
improvement, as appropriate.

We engaged KPMG LLP to perform the pre-audit survey of the Florida Commission on Community
Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission administers
an open, competitive process to select national service subgrantees, but noted areas for improvement.
KPMG concluded that the Commission's control policies and procedures to administer Corporation
grant funds, and to provide subgrantees with training and technical assistance are adequate. However,
KPMG recommends improvements in the Commission S monitoring processes. In addition, KPMG
recommends that the Office of Inspector General perform limited auditingprocedures tofollow-up on
issues identified by this pre-audit survey and that the Corporation follow-up to determine that
appropriate corrective actions have been put into place.




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, DC 20525
CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.

The Florida Commission's response (Appendix C) describes its corrective actions in response to the
report's recommendations. The Corporation's response (Appendix D) indicates that the Corporation
plans to request semi-annual reports from the Commission on its actions to correct the conditions
reported and to follow-up on the corrective actions when the Commission is reviewed during the
Corporation's administrative review process.
                                           Pre-Audit Survey of the
                                  Florida Commission on Community Service
                                              Table of Contents



RESULTS IN BRIEF .......................................................................................................................1

BACKGROUND .............................................................................................................................
                                                                                                                                      2

OVERVIEW OF THE FLORIDA COMMISSION.....................................................................2

OBJECTIVES. SCOPE. AND METHODOLOGY ..................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................5

APPENDIX A. COMMISSION FUNDING: 1996-97 THROUGH 1998-99 .............................A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ........................................................................................................... B .1

APPENDIX C. FLORIDA COMMISSION ON COMMUNITY SERVICE RESPONSE ......... C.1

APPENDIX D. CORPORATION RESPONSE ........................................................................... D.1
           2001 M Street, NW                                                Telephone 202 533 3000
           Washington, DC 20036                                             Fax 202 533 8500



January 25, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Florida Commission on Community
Service (Commission). The primary purpose of this survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, the Commission could not locate requested conflict of interest
    statements, and its files lack certain documentation to support funding decisions.

    The Commission has adequate control policies and procedures in place to administer the
    Corporation's grant funds.

    The Commission has established controls to evaluate and monitor subgrantees. However,
    the Commission's on-site monitoring procedures do not require documentation of the review
    of Member timesheets or subgrantee expense items.

    The Commission has adequate controls in place to provide reasonable assurance that training
    and technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of limited audit
procedures to address the issues identified herein at the Commission for program years 1995-96
through 1998-99. As part of the State of Florida, the Commission is annually subject to Office
of Management and Budget (OMB) Circular A-133 audits. In addition, the Commission
contracted for a separate OMB Circular A-133 audit for the fiscal year ended June 30, 1997,
which reported no material internal control weaknesses or instances of noncompliance.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the Florida
Community Service Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Florida Commission

The Florida Community Service Commission, located in Tallahassee, Florida has received
AmeriCorps grant hnds from the Corporation for National and Community Service since
program year 1994-95. The Commission was established by Florida Statute 14.29 and is
assigned to the Executive Office of the Governor of the State of Florida. The Commission
serves as an advisory board to the Governor, Cabinet, the Legislature, and appropriate state
agencies and entities on matters relating to volunteerism and community service. The
Commission currently has 26 full-time staff under the direction of an Executive Director,
Associate Director and various department directors.

All Federal awards administered by the Commission are subject to the annual OMB Circular A-
133 audit performed by the Auditor General of the State of Florida. The Commission's
AmeriCorps grant was tested as a major program in accordance with OMB Circular A-133 for
the state's fiscal year ended June 30, 1996; no material findings related to the Commission were
noted. For its fiscal year ended June 30, 1997, the Commission contracted for an independent
financial statement audit. This audit was performed in accordance with Government Auditing
Standards and included an audit of the Commission's Federal awards in compliance with the
requirements of OMB Circular A- 133. No significant findings were reported. The
Commission's ArneriCorps grant was not selected as a major program in the fiscal year 1997 or
1998 audit performed by the Auditor General.

The Commission provided us with the following information for the last three program years:

                                                                    Number of Sub-
                                                                    grantees Subject
                             Total Corporation      Number of       to A-133 Audit
        Program Year             Funding            Subgrantees      Requirements*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its ArneriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its ArneriCorps State subgrantees, including ArneriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.
We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
   Manual for Commission Executive Directors and Members, and other information to gain an
   understanding of legal, statutory and programmatic requirements;

    reviewing OMB Circular A- 133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99; and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place,at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 25,2000. Subsequent to that date, we
communicated with the Commission to clarify and resolve certain matters related to our
preliminary findings and to obtain additional information to finalize our report.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively.
VM!!
 Findings and Recommendations

 Selecting Subgrantees

 According to A Reference Manual for Commission Executive Directors and Members, section
 3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
 selecting applicants for potential funding."

 The Commission administers an open, competitive process to select national service subgrantees.
 Selection officials receive a conflict of interest information sheet and an instruction package and
 use a standard form to evaluate each applicant. However, we identified the following areas for
 improvement within the selection process.

          Maintenance of Completed Conflict of Interest Statements

  According to A Reference Manual for Commission Executive Directors and Members, section
  3.6, "State Commissions should strive to achieve the greatest objectivity and impartiality
  possible in the review and selection of grantees in the state.. .Any time a voting Commission
  member is not, or does not appear to be, for any reason, impartial to a program that is applying to
  the Commission for funding, the member has a conflict of interest." One way to help ensure this
  objectivity is to require selection officials (i.e., Commission members and peer reviewers) to
  annually certify in writing that they have no conflicts of interest.

  Commission procedures call for staff to distribute relevant conflict of interest guidance to
  selection officials and requires these officials to annually sign conflict of interest statements
  certifying that they have no conflicts. However, for the three sample items selected in program
  year 1998-99, we were unable to review the signed conflict of interest statements as the
  Commission could not locate them.

          Documentation of Reasons for Funding Decisions

  In testing samples of applicants who were. denied funding in program years 1997-98 and 1998-
  99, we noted that files for seven of eight items selected did not contain the rejection letter sent to
  the applicant. However, we did observe the existence of two of the missing letters on the
  Commission's computer system.

  In addition, we selected four sample items from applicants awarded funding in program years
  1997-98 and 1998-99. Of these items, three files did not contain renewal program performance
  assessments and one file did not contain a review evaluation.

          Recommendation

  We recommend the Commission develop procedures to ensure all support relevant to the
  selection process is documented and maintained. Such documentation should include
  justification for applicants who are awarded and denied funding. The Commission should also
  ensure that a copy of the annual conflict of interest certification is obtained from selection
  officials and properly maintained at the Commission.
Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manual for Commission Executive Directors
and Members, section 4.3).

The Commission's personnel appear to have adequate skills and experience to manage and
administer Corporation grant funds. They have developed control policies and procedures to
administer the Corporation's grant funds and, based on the results of our procedures, no areas for
improvement were noted within this process.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has established controls to evaluate and monitor
subgrantees, which include reviewing program and financial reports and conducting two quality
assurance site visits for each subgrantee during the grant period. Commission personnel are
required to notify the subgrantees of the results of these site visits, including strengths,
weaknesses, concerns, recommendations, and any necessary follow-up requirements. The
Commission also obtains and reviews OMB Circular A-133 reports from subgrantees on a
routine basis.

However, we identified the following area for improvement related to the evaluation and
monitoring of subgrantees.

        Review of Subgrantees ' AmeriCorps Member Timesheets and Expense Documentation
        during Site Visits

We reviewed quality assurance reports and interviewed selected program consultants to
determine what procedures were performed during the quality assurance site visits. While the
consultants represented to us that their visits included verification of Member timesheets and
review of source documentation for expenses submitted for reimbursement, there was no
documentation of the items selected during the review. As a result, we were unable to verify that
such procedures were being performed.

        Recommendation

We recommend the Commission document procedures completed to review Member timesheets
and expense documentation during site visits. Documentation should include the listing of
selected Member files, source documents and reports reviewed d&ng the on-site visit, the dates
covered by the review and the names of the personnel responsible for providing the information.
m a
 Providing Technical Assistance

 The Commission has adequate controls in place to provide reasonable assurance that training and
 technical assistance is made available and provided to subgrantees. Procedures are in place at
 the Commission to (1) identify training and technical assistance needs of subgrantees through
 site visits, progress reports and a needs assessment survey; (2) notify subgrantees of training
 programs; and (3) provide needed training to subgrantees. We identified no significant areas for
 improvement within this process.




 This report is intended solely for the information and use of the Office of the Inspector General,
 the management of the Corporation for National and Community Service, the management of the
 Florida Commission on Community Service, and the United States Congress and is not intended
 to be and should not be used by anyone other than these specified parties.
                                Commission Funding                         Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding
over the past three program years. We were unable to agree the funding amounts to the
Commission's FSRs for the 1996-1997 program year because those FSRs had been prepared on a
cumulative, not program year, basis.


        Funding Source and Type

        CNS Formula Grant Funds

        CNS Competitive Grant Funds

        CNS Learn and Serve Funds

        CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

          Total Funding
                      Commission Funding                        Appendix A




            Corporation for National Service
                    Funding to the
      Florida Commission on Community Service
                      1998-1999


Formula                                             All Other
 Funds                                               Funds
                              Funds
                                                    $482,193



                                                   T
 Total Corporation Funds Available to the Commission
                     $6,501,664




              Funds Awarded to Subgrantees
                      $5,823,471




     Subgrantees
                                1
                          Competitive
                          Subgrantees
                                            Learn and Serve
                                              Subgrantees
      $3,174,335                                $180,000
   # of subgrantees      # of subgrantees   # of subgrantees

                                               # of sites
                        Commission Funding                                       Appendix A




                   Corporation for National Service
                           Funding to the
             Florida Commission on Community Service
                             1997-1998

         I             I                               I              I
     Formula       Competitive     Learn and        PDAT          All Other
      Funds          Funds           Serve          Funds          Funds
                                    Funds
    $3,624,716     $2,615,828      $188,500        $144,000       $512,396




        v              v               v              v              v
I      Total Corporation Funds Available to the Commission
                           $7,085,440




                   Funds Awarded to Subgrantees
                           $6,429,044



   Formula                        Competitive
  Subgrantees                     Subgrantees                 Learn and Serve
  $ 3,624,716
# of subgrantees
       I1
                                   $2,615,828
                                # of subgrantees
                                        9
                                                                Subgrantees
                                                                 $188,500
                                                              # of subgrantees
                                                                                 1
    # of sites                      # of sites                       37
                                       11                         # of sites
                            Commission Funding                                      Appendix A




                    Corporation for National Service
                            Funding to the
              Florida Commission on Community Service
                              1996-1997
I                                                                               I
          I                I              I               I             I




C    Formula
      Funds

    $5,750,513
                       Competitive
                         Funds

                        $353,491
                                      Learn and

                                       Funds
                                      $165,000
                                                       PDAT
                                                       Funds

                                                      $144,000




       Total Corporation Funds Available to the Commission
                           $6,983,158
                                                                    All Other
                                                                     Funds

                                                                    $570,154




                       Funds Awarded to Subgrantees
                               $6,269,004




       Formula                       Competitive                 Learn and Serve
      Subgrantees                    Subgrantees                   Subgrantees
      $ 5,750,5 13                                                  $165,000
    # of subgrantees               # of subgrantees              # of subgrantees
           22                                                           10
        # of sites                    # of sites                     # of sites
                                                                        10
                                                                                  Appendix B
                           Detailed Engagement Objectives
                                  and Methodology

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subrecipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;
                                                                                Appendix B
                          Detailed Engagement Objectives
                                 and Methodology

   make a preliminary assessment as to whether the Commission's organizational structure and
   staffing level and skill mix are conducive to effective grant administration and whether the
   Commission has a properly constituted membership;

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and
                                                                                  Appendix B
                          Detailed Engagement Objectives
                                 and Methodology


   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.


Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they properly related to training activities that were made available to all subgrantees.
                    04
                2+
                 -($:
Florida %,                                                                                     Appendix C
Commiss~on
SCommunity Florida Community Service Commission Response
    Service

            Commissioners

        Dr. levester Tubbs
                         Choir

     Barney T. Bishop, 111
                     Vice Choir   August 18,2000
            Carlos Llorente
                     Treasurer
                                  Luise S. Jordan
                                  Office of Inspector General
      Dr. George W. Young         1201 New York Avenue, NW
          Immediate Past Choir
                                  Washington, DC 20525
               Cynthia Asia

                 Honor Bell       Dear Ms. Jordan
           Deborah Brooks           We have reviewed the preliminary audit findings and recommendations on
                Roy Brooks        the draft report of the pre-audit survey of the Florida Commission on
            Sidney Charles
                                  Community Service. Enclosed is the response of the Commission.
 Adriana Cornellas-Macretti         We appreciate your comments and recommendations. Should you require
            Jeffery Donley        any additional information, please let us know.
              Glorida Evans

                    Pat Fine

               Joe Follman

             Tom Gallagher

        Joseph C. Gerwens

                 Ted Hendry
                                  Cc: Quinton Lynch, CNS
                                      ,

                   Dan King           Lee Tubbs, Commission Chairman
              Patrick Morns           Jill Canono
                                      Venita Dorsey
       Maria Cristina Oliva

              Eduardo Rivas

      Maria Teresa Sanjuan

         Ryan Scarborough

           Warren C. Smith

               Joan Wallace

               Carl Weinrich

           Roberta.Zipperer


           Fred Janguiliano
               Ewtin Oimtor

                                                                            Phone 8SO.921.5172 (voice/tty)   444 Appleyard Drive
                                                                                        SunCom 291.51 72     Tollahassee, Florida 32304
                                                                                        Fax 850.921.5146     www. fccs.org
                                                                           Appendix C

            Florida Community Service Commission Response

Maintenance of Completed Conflict of interest Statements and Documentation of
Reasons for Funding Decisions

Finding

In testing samples of applicants who were denied funding in program years 1997-98 and
1998-99, we noted that files for seven of eight items selected did not contain the rejection
letter sent to the applicant. However, we did observe the existence of two of the missing
letter on the Commission's computer system.

In addition, we selected four sample items from applicants awarded funding in program
years 1997-98 and 1998-99. Of these items, three files did not contain renewal program
performance assessments and one file did not contain a review evaluation.

Recommendation

We recommend the Commission develop procedures to ensure all support relevant to the
selection process is documented and maintained. Such documentation should include
justification for applicants who are awarded and denied funding. The Commission
 should also ensure that a copy of the annual conflict of interest certification is obtained
 from selection officials and properly maintained at the Commission.

Response

It is a policy and a standard practice of the Florida Commission on Community Service to
require all peer reviewers to sign a conflict of interest form. Each year the peer reviewers
sign conflict of interest forms as a regular part of their training and orientation before
they begin to review proposals. It is also policy and standard practice of the Florida
Commission on Community Service to provide justification for applicants who are
awarded and denied funding.

During the '98-'99 program year, conflict of interest forms were signed by each peer
reviewer. However, during an office move in 1998 the conflict of interest forms were
misplaced and could not be located.

In February 2000, the Florida Commission on Community Service established tighter
controls for filing and maintaining all files. We implemented a checklist showing which
items should be included with each completed application file. This includes placing
conflict of interest forms, review sheets and rejection letters sent to non-funded
applicants in the appropriate files. Also, as part of the orientation packet for the Florida
Commission's Board of Commissioners, they are now required to sign a form which
certifies that each Commissioner will recuse themseIves from voting on program funding
if they have a conflict of interest (Attachment 1).
                                                                          Appendix C

Evaluating and Monitoring Sub-grantees -
Review of Sub-grantees' AmeriCorps Member Time Sheets and Expense
Documentation during Site Visits

Finding

We reviewed quality assurance reports and interviewed selected program consultants to
determine what procedures were performed during the quality assurance site visits.
While the consultants represented to us that their visits included verification of Member
timesheets and review of source documentation for expenses submitted for
reimbursement, there was no documentation of the items selected during the review. As
a result, we were unable to verify that such procedures were being performed.

Recommendation:

We recommend the Commission document procedures completed to review Member
time-sheets and expense documentation during site visits. Documentation should include
the listing of selected Member files, source documents and reports reviewed during the
on-site visit, the dates covered by the review and the names of the personnel responsible
for providing the information.

Response:

It has been the practice of the Commission staff to review supporting documents and time
sheets during the Site Visits using the Program Review Instrument and Quality Assurance
visits using the Quality Assurance instrument. Upon the exit interview of the pre-audit
survey with KPMG when this recommendation was made, we implemented the attached
policy (Annual Supporting Documentation Request - Attachment 2). This requires each
program to submit at least one month3 supporting documentation during the program
year for review. We have also incorporated the attached forms (Monitoring Instrument -
Financial Management - Attachment 3, Monitoring Instrument - Time Sheet -
Attachment 4) into our current Site Visit and Quality Assurance visit tools. The attached
revised policy (Attachment 5) reflects the use of the new form into the tools.
                                   Conflict of Interest

We, as the Florida State Commission on Community Service, strive to achieve the greatest
objectivity and impartiality possible in the review and selection of grantees in the state. As
defined by the National and Community Service Act, a Commission member is considered to
have a conflict of interest if the member is currently, or was within one year of the submission of
a grant application to the Commission:

                       o     An officer,

                       a      A director,

                       a      A trustee,

                       a      A full-time volunteer. or

                       a      An employee of an organization submitting a grant application to
                              the State Commission

The regulations further clarify that even the appearance of a conflict of interest must be avoided.
If, for instance, a Commission member founded, contributed to the founding, assisted in the
development of, or donated large sums of money to an organization applying for funds,he or she
would have a conflict in voting on the selection of programs.

The policy of the Florida Commission on Communify Service i s that any time a voting
Commission member is not, or does not appear to be,for any reason, impartial to a program
that b applying to the Commissionfor funding, the member has a conflict of interest.



I have read and understand the above conflict of interest statement. If, for any reason, I am not
impartial to a program or an issue that comes before the board, I will excuse myself from voting.



Commissioner Name (please print)



 Signature                                            Date

 This document will be in effect for the term(s) of the Commissioner.
                                                        +.PCL#tc&-r              3,

Florida Commission on Community Service                     Financial Operations


Annual Supporting Documentation Request
Established: 2-00

Once during the program year the Commission will request one month's supporting
documentation of expenditures submitted on the corresponding month's FSR. The
supporting documentation will be reviewed according to the FSR submitted, OMB
Circulars, Provisions, and the Contract to verify expenditures. The review will also allow
the Commission to further recognize sites needing additional technical assistance.

The month is to be selected at random, be requested from all sites at the same time and
should be the same month for each program. The month requested will not include the
first or last month of the program year. If possible a quarter ending and fiscal year
ending month will not be selected due to additional reports required by the financial
offices of grantees.

The sites may be contacted for further clarification of any expenditures during the month
requested. The review may be expanded if any supporting documents are unexplained or
continue to be questioned.
Florida Commission on Community Service
AmeriCorps Monitoring Instrument

Worksheet : Financial Management                               Reviewed By:
                                                               Date:




Report Date Budget Line   Source (Fed,Match) Amount Reported   Substantiated (YesINo) Notes




              I




                                                    C6
                                                      -k---        &A1   -7     5
Florida Commission on Community Service                      Financial Operations


Purpose of Site Visits and Quality Assurance Visits
Established: August 1996
Revised: September 2000

The Site Visit will consist of a one day visit utilizing the Program Review Instrument.
A Quality Assurance visit will consist of a two to three day visit utilizing the Quality
Assurance Instrument.

The QA visit allows for a closer and specific review of source documents. The time
permitted in a site visit allows for only a general limited review of source documents.
The intent of the site visit is to review systems to determine if additional assistance is
needed in order for the program to operate. The intent of the QA visit is to determine if
procedures and practices may be improved.

The ArneriCorps Monitoring Tools for Financial Management and Time Sheets will be
utilized to document specific supporting documents reviewed. The completed tool will
be filed in the Commission's Program File attached to the visit report.
                                                  Corporation Response
                                                                                                Appendix D
                                                          CORPORATION
                                                          FOR NATIONAL



       MEMORANDUM

       TO:                 Luise S. Jordan                         e



       THRU:

       FROM:               Deborah R. ~ o s ~ i n 9
                           Bruce H. Cline %

       DATE:               August 17,2000

       SUBJECT:            Response to the Draft Audit Report 00-30 Pre-Audit Survey of the
                           Florida Commission on Community Service


       We have reviewed the draft report on your pre-audit survey of the Florida Commission.
       We note that your preliminary assessment recommends a limited procedures audit at the
       Florida Commission for program years 1995-96 through 1998-99. The draft audit report
       includes the following recommendation to the Corporation:

                 "Additionally, we recommend that the Corporation follow up with the
                 Commission to determine that appropriate corrective actions are put into place to
                 address the conditions reported herein, and that the Corporation consider these
                 conditions in its oversight and monitoring of the Florida Commission."

         Some of the conditions cited in the "results in brief' section of the report include
         concerns related to retention of conflict of interest statements and specific
         documentation to support the selection of national service subgrantees. It was also noted
         that the Commission's on site monitoring procedures do not require documentation of
         the review of Member timesheets or subgrantee expense items.

         Given our limited program administration resources, we developed a plan to assess State
         Commission administration functions. Over a three-year period, we will be reviewing
         each of the state commissions. As part of our follow-up with Florida, we will determine
         whether the Commission has put appropriate corrective actions in place for conditions
         noted in the pre-audit survey that your office has issued.

         In addition to this scheduled review, we will also request that the Florida Commission
         provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
         audit survey.




NATIONAL SERVICE: G E l l l N G THINGS DONE                            1201 New York Avenue, N.W. Washington, D.C. 20525
AmeriCorps   Learn and SeneAmerica   .VationalSenior M c e Corps       telephone: 202-606-5000 website: wwarnati~dseni~e.~rg
